Audit of USAID's Monitoring of Interagency
Arrangements with the Department of State
and Other Federal Agencies

Audit Report Number 9-000-01-006-P

September 28, 2001




                Washington, D.C.

U.S. AGENCY FOR

INTERNATIONAL

 DEVELOPMENT


September 28, 2001

MEMORANDUM

FOR:               A-AA/M, Richard C. Nygard
                   AA/PPC, Patrick Cronin
                   M/OP/OD, Mark S. Ward
                   M/CFO, Michael T. Smokovich
                   GC, John Gardner

FROM:              AIG/A, Toby L. Jarman /s/

SUBJECT:           Audit of USAID's Monitoring of Interagency
                   Arrangements with the Department of State and Other
                   Federal Agencies (Report No. 9-000-01-006-P)

This is our report on the subject audit. In finalizing the report, we
considered your comments on the draft report. Those comments
are included, in their entirety, as Appendix II.

This report includes six audit recommendations. The first five are
procedural recommendations, all of which we consider to have
received a management decision. Recommendation No. 6, which
recommends that the Office of the Chief Financial Officer review
$30.5 million in advances made to other federal agencies under
interagency agreements which have expired and either liquidate or
recover those advances, is a monetary recommendation for which
we have not received a management decision. Please inform us
within 30 days of any actions planned or taken to implement this
recommendation. Because this is a monetary recommendation,
your comments should include a statement as to the amount, if any,
of advanced funds that should be recovered.

I appreciate the cooperation and courtesy extended to my staff
members during this audit.



                       1300 PENNSYLVANIA AVENUE, N.W.                   1
                         WASHINGTON, D.C. 20523
[This page intentionally left blank]




                                       2
Table of
   Summary of Results                                    5
Contents

            Background                                            7

            Audit Objectives                                      8

            Audit Findings:                                       8

            Did USAID establish adequate management controls
            for deciding on the use of Section 632(a) and
            Section 632(b) arrangements?                          8

               Need For Better Guidance For Deciding on the
               Use of Section 632(a) Allocations and Transfers    9

            Did the Department of State (DOS) provide
            financial and performance reports to USAID
            as required under Section 632(a) allocations and
            Section 632(b) interagency agreements, and were
            the reports useful to USAID to manage its programs?   11

               Need to Develop and Document Procedures
               for Obtaining Financial Reports for
               Section 632(a) Allocations                         12

               Need for Follow-up Procedures for
               Section 632(b) Agreements                          13

               Need for Better Work Statements and
               Performance Reports                                15

            Did USAID effectively manage advances under
            Section 632(b) interagency agreements?                17

               Need for Better Management Controls
               to Liquidate Advances under
               Expired Interagency Agreements                     17

            Management Comments and Our Evaluation                23

            Appendix I:     Scope and Methodology                 27
            Appendix II:    Management Comments                   31
            Appendix III:   List of Agreements Reviewed           39
            Appendix IV:    Status of Outstanding Advances        41



                                                                       3
[This page intentionally left blank]




                                       4
             Section 632(a) of the Foreign Assistance Act of 1961, as amended,
Summary of   allows USAID to transfer or allocate its appropriated funds to other
Results      federal agencies to support the purposes of the Act. Section 632(b)
             of the Act allows USAID to use its appropriated funds to acquire
             services and commodities from other federal agencies, also in
             support of the purposes of the Act. Through a variety of
             arrangements authorized by Sections 632(a) and 632(b), USAID
             transfers, allocates and disburses a significant percentage of its
             annual appropriation to other federal agencies, including the
             Department of State (DOS). (See page 7.)

             The audit was designed to determine whether USAID had
             established adequate management controls for deciding on the use
             of interagency arrangements, received required financial and
             performance reports from the DOS, and effectively managed
             advances under Section 632(b) agreements. (See page 8.)

             The principal findings in this audit included:

             •	 USAID did not establish adequate guidance to help managers
                decide between the use of Section 632(a) allocations and
                transfers. (See pages 8 through 11.)

             •	 USAID did not receive all the reports that the DOS was
                required to provide for Section 632(a) allocations and Section
                632(b) interagency agreements. Also, the performance reports
                that the DOS did provide were not useful in helping USAID
                measure progress toward the anticipated results of Section
                632(b) interagency agreements. (See pages 11 through 17.)

             •	 USAID did not effectively manage the liquidation of advances
                given to the DOS and other federal agencies under Section
                632(b) interagency agreements. USAID records showed that
                60 interagency agreements that had expired prior to December
                31, 2000 still had outstanding advances from USAID totaling
                $30.5 million. (See pages 17 through 21.)

             This audit report includes five procedural recommendations and
             one monetary recommendation to address the above problems.
             The monetary recommendation is that USAID liquidate or recover
             $30.5 million in advances under 60 expired interagency
             agreements. (See pages 8 through 21.)

             Management agreed with our findings and plans to implement all
             six recommendations. According to management, planned actions


                                                                                 5
for the five procedural recommendations entail revisions or
additions to Chapter 306 of USAID’s Automated Directives
System, scheduled to be updated by September 30, 2002. Based
on management’s response, we consider all five procedural
recommendations to have received a management decision.

Concerning the single monetary recommendation, management
agreed to review advances for expired interagency agreements and
liquidate or recover outstanding balances, but did not indicate a
timeframe for accomplishing the review. Because this is a
monetary recommendation, for which management has not yet
determined a recoverable amount, we do not consider it to have
received a management decision. (See pages 23 through 26.)




                                                                6
              Section 632(a) of the Foreign Assistance Act of 1961, as amended,
Background

              stipulates that the President may allocate or transfer to any agency
              of the U. S. Government any part of any funds available for
              carrying out the purposes of the Act. Such funds shall be available
              for obligation and expenditure for the purposes for which
              authorized, in accordance with the authority granted in the Act or
              under authority governing the activities of the agencies of the U.S.
              Government to which such funds are allocated or transferred.
              When USAID allocates or transfers funds to another federal
              agency under the authority of Section 632(a), the recipient agency
              is responsible for obligating the funds and is accountable for their
              use. The recipient agency is also required to provide financial
              reports to USAID on the status of obligations under allocations,
              but not for transfers.

              During fiscal year 2000, USAID entered into 139 Section 632(a)
              allocation or transfer arrangements with the Department of State
              (DOS) totaling $740.7 million. Those arrangements consisted of
              26 allocations and 113 transfers with total values of $352.5 million
              and $388.2 million, respectively.

              Section 632(b) of the Act, as amended, allows any officer of the
              U.S. Government carrying out functions under the Act to use the
              services of, or acquire commodities from, any agency of the U.S.
              Government. Under its Section 632(b) interagency agreements
              with the DOS, both USAID and the DOS have responsibilities
              regarding use of the funds. USAID’s responsibilities include: (1)
              obligating the funds, (2) monitoring whether the DOS provides
              required financial and performance reports, (3) reimbursing the
              DOS for costs incurred under the agreements, and (4) determining
              whether activities funded through the interagency agreements are
              achieving their anticipated results. The DOS’s responsibilities
              include: (1) complying with agreement conditions, (2) awarding
              contracts or grants to other organizations to implement agreed
              upon activities, and (3) monitoring these organizations to ensure
              that they comply with agreement terms, achieve their performance
              goals, and use funds for authorized purposes.

              As of September 30, 2000, USAID had 19 active Section 632(b)
              interagency agreements with the DOS, with total obligations and
              expenditures of $35.3 million and $9.0 million, respectively.




                                                                                  7
 Audit Objectives
   As part of its fiscal year 2001 audit plan, the OIG's Performance
                     Audits Division performed an audit to answer the following
                     questions:

                     •	 Did USAID establish adequate management controls for
                        deciding on the use of Section 632(a) and Section 632(b)
                        arrangements?

                     •	 Did the Department of State provide financial and performance
                        reports to USAID as required under Section 632(a) allocations
                        and Section 632(b) interagency agreements and were the reports
                        useful to USAID to manage its programs?

                     •	 Did USAID effectively manage advances under Section 632(b)
                        interagency agreements?

                     Appendix I describes the audit's scope and methodology.




Audit Findings
      Did USAID establish adequate management controls
                     for deciding on the use of Section 632(a) and Section
                     632(b) arrangements?
                     Although management controls for deciding on the use of Section
                     632(b) interagency agreements appeared to be adequate, USAID
                     did not establish adequate management controls for deciding on
                     the use of Section 632(a) allocations and transfers.

                     USAID has issued several documents setting forth policies and
                     procedures for deciding on the use of Section 632(b) interagency
                     agreements. For example, an October 1996 memorandum on the
                     subject, "Revised Delegation of Authority for Interagency
                     Agreements under FAA [Foreign Assistance Act] Section 632(b)
                     and Use Standards," provided specific examples of requirements
                     for using Section 632(b) interagency agreements.

                     However, as discussed below, we believe that USAID should
                     establish better management controls to help managers decide
                     whether, and which type of, Section 632(a) arrangements would be
                     appropriate.




                                                                                         8
Need for Better Guidance for Deciding on the
Use of Section 632(a) Allocations and Transfers

Contrary to federal requirements, USAID had not established clear
guidance and criteria to help its managers decide whether to use
Section 632(a) allocations or transfers. The lack of well-
communicated, centralized guidance for deciding on the use of
Section 632(a) allocations and transfers has resulted in inconsistent
practices and confusion among managers.

Section 632(a) of the Foreign Assistance Act of 1961 (Act), as
amended, stipulates that the President may transfer or allocate to
any agency of the U.S. Government any part of any funds available
for carrying out the purposes of the Act. Although the Act does
not provide guidance to help managers decide when to use these
arrangements, or which arrangement would be preferable, other
federal laws and regulations require agencies to develop and
document such guidance. For example, the General Accounting
Office’s "Standards for Internal Controls in the Federal
Government," revised November 1999, and the Office of
Management and Budget’s Circular A-123, "Management
Accountability and Control," revised June 1995, require that
management controls and all transactions and other significant
events be clearly documented.

USAID had not established comprehensive or centralized policies
and procedures to help managers decide when to use Section
632(a) arrangements. As a result, USAID managers were using
different or no guidance in making such decisions. As shown
below, officials in four USAID/Washington bureaus provided
varying answers as to the Agency’s policies and procedures for
deciding on the use of Section 632(a) allocations or transfers.

•	 Officials representing the Office of Budget in the Bureau for
   Management and the Bureau for Asia and the Near East were
   unaware of any documented USAID policies.

•	 Officials from the Latin America and Caribbean Bureau
   identified several documents including the following:

       ADS 306, "Interagency Agreements," revised May 4, 2000;
       and

       USAID Program Guidance 94-03, "Administrative
       Guidance for Implementing a Part of the [Operating Year


                                                                    9
        Budget] by Allocating Funds to Another U.S. Government
        Agency under Section 632(a) of the Foreign Assistance Act
        of 1961, as Amended," dated May 16, 1994.

•	 Officials from the Bureau for Europe and Eurasia identified
   two documents:

        ADS 200 Series, "Internal Mandatory Reference" on
        Sections 632(a) and 632(b) Memoranda of Understanding
        and Interagency Agreements, revised in September 2000;
        and

        a document entitled, "Comparison of Key Elements of
        Sections 632(a) and 632(b) Agreements," dated December
        5, 1996, which the officials said was prepared by the
        General Counsel for the Bureau at that time.

Although the documents cited above provided some guidance for
administering Section 632(a) allocations and transfers, they were
not easily accessible from a central source and did not provide
clear criteria to help managers in deciding between use of Section
632(a) allocations or transfers.

USAID officials said that the DOS generally decided whether
USAID would transfer or allocate funds to the DOS and that there
was no formal USAID requirement that the reasons for these
decisions be justified or documented. For example, officials from
the E&E Bureau said that the decision to use a transfer or
allocation in some cases depended on the ability of the recipient
agency to account for funds and report directly to the U.S.
Department of Treasury. 1

USAID officials also said that they, OMB, and the DOS were
considering using "direct apportionment" in lieu of Section 632(a)
allocations and transfers from USAID to the DOS in some cases.
Under the direct apportionment process, once USAID and the DOS
have determined the amount of funds needed to support DOS
objectives, the funds would be directly apportioned to the DOS.
The extent to which this alternative process would be used was not
known at the time of the audit. In January 2001, OMB sent a
memorandum to USAID and the DOS stating that, at the end of

1
  E&E officials indicated that they had an informal agreed-upon practice with
the DOS regarding whether to use an allocation or a transfer for Section 632(a)
arrangements. If DOS has the appropriate account into which funds can be
transferred, then a transfer is used. If DOS does not have an appropriate
account, then an allocation is used.


                                                                              10
fiscal year 2001, it would assess how well the direct apportionment
process worked. If USAID plans to use this alternative
interagency funding mechanism, instructions and criteria regarding
its use should also be included in the guidance for Section 632(a)
allocations and transfers.

In conclusion, USAID needs to improve its management controls
for deciding on the use of Section 632(a) allocations and transfers
by developing clearer guidance and making that guidance easily
accessible from a centralized source.


   Recommendation No. 1: We recommend that the
   Office of Procurement, in coordination with the
   Bureau for Policy and Program Coordination and the
   Office of General Counsel, develop clear and
   centralized guidance for deciding on the use of Section
   632(a) allocations and transfers.




Did the Department of State provide financial and
performance reports to USAID as required under
Section 632(a) allocations and Section 632(b)
interagency agreements and were the reports useful to
USAID to manage its programs?
The DOS did not provide all financial and performance reports
required under its Section 632(a) allocations and Section 632(b)
interagency agreements with USAID, and the performance reports
provided did not include information needed to assess progress.

As explained below, we believe that USAID needs to:


•	 develop and document procedures to be followed when recipient
   agencies do not provide reports required for Section 632(a)
   allocations and Section 632(b) interagency agreements and


•	 develop better work statements and reporting requirements so
   that it can measure progress toward achievement of anticipated
   results under Section 632(b) agreements.




                                                                    11
Need to Develop and Document Procedures for Obtaining
Financial Reports for Section 632(a) Allocations

The DOS did not provide the financial reports required by the
terms of its Section 632(a) allocations with USAID. This
occurred, in part, because USAID had not issued guidance alerting
managers to the fact that reports were required or advising them
how to proceed when recipient agencies do not submit required
reports. In addition, allocation agreements may contain outdated
reporting requirements.

We reviewed five Section 632(a) allocations (valued at $154.4
million as of September 30, 2000) between USAID and DOS. In
each case, a Memorandum of Agreement (MOA) had been prepared
that required DOS to provide financial reports to USAID. Two of
the MOAs required the DOS to report, to the USAID Office of
Financial Management, on these funds "… in accordance with
regular procedures on reporting on International Organizations and
Program Funds." The remaining three MOAs required the DOS to
provide USAID with the following reports:

•	 Quarterly Report on Budget Execution (Standard Form 133), in
   accordance with Office of Management and Budget (OMB)
   Circular A-34 and Bulletin 94-02, and a fiscal year-end
   certification report; and

•	 A monthly summary of obligations by completing only line 8
   (obligation incurred) of Standard Form 133.

According to USAID officials, the DOS did not submit a Standard
Form 133 or a fiscal year-end certification report for any
allocations made in fiscal year 2000. The officials said that there
are no formal USAID policies and procedures on (1) what reports
are required for recipients of Section 632(a) allocations or (2) how
to help ensure that required reports are submitted by recipient
agencies. Further, the officials indicated that they do not need the
DOS to submit the Standard Form 133 because the requirement is
outdated.

The officials also said that they did not know what type of reports
were specifically required in reference to (1) the "regular
procedures on reporting on International Organizations and
Program Funds" and (2) OMB Bulletin 94-02. The officials noted
that the DOS does submit monthly "AID Flash Obligations"
reports that identify allotments and obligations by appropriation,
but not by individual allocation. The officials said that Section


                                                                  12
632(a) allocations do not show up on USAID’s financial
statements and there is no need for USAID to have information on
expenditures under the allocations.

In conclusion, USAID does not have documented management
controls that identify the specific reports required under Section
632(a) allocations and help ensure that recipient agencies provide
these reports.


   Recommendation No. 2: We recommend that the

   Office of Procurement, in coordination with the

   Bureau for Policy and Program Coordination, the

   Office of the Chief Financial Officer, and the Office

   of General Counsel, establish policies and

   procedures that identify the specific reports

   required under Section 632(a) allocations. The

   policies and procedures should be designed to

   enforce the requirement that recipient agencies

   provide the required reports.



Need for Follow-up Procedures for Section 632(b) Agreements

The DOS did not provide the financial and performance reports
required by its Section 632(b) agreements with USAID and in
accordance with management control requirements set forth in
OMB Circular A-123. This occurred, in part, because USAID had
not issued guidance assigning responsibility for obtaining the
reports and advising responsible officials how to proceed when
recipient agencies do not submit required reports. Untimely
reporting impaired USAID's ability to monitor progress in
achieving the anticipated results and to accurately report the status
of expenditures under the agreements.

OMB Circular A-123, "Management Accountability and Control,"
revised as of June 21, 1995, requires agencies and individual
federal managers to develop and implement appropriate
management controls to reasonably ensure that government
resources are used efficiently and effectively to achieve intended
program results.

Each of the four Section 632(b) interagency agreements we reviewed
required the DOS to provide periodic financial and performance
reports and other documents to USAID. However, the DOS did not
provide the documents as required. For example:



                                                                   13
•	 The DOS did not submit any of the required quarterly reports
   for a Section 632(b) interagency agreement awarded in July
   1999 (with obligations of $9.7 million). As a result, USAID’s
   accounting records did not show any expenditures under this
   agreement as of May 2001.

•	 The DOS did not provide USAID with a work plan, which was
   due in October 2000, until June 2001. USAID approval of the
   work plan was prerequisite to the implementation of planned
   activities under the agreement that had obligations of $1.5
   million.

USAID did not enforce the terms of its agreements with the DOS
for several reasons. The most important appeared to be the
absence of clear guidance for monitoring and follow-up
responsibilities in ADS 306, "Interagency Agreements." For
example:

•	 Although ADS 306 states that the USAID technical officer is
   responsible for overseeing all technical matters with the
   participating (recipient) agency, monitoring the effectiveness
   of services being provided, and keeping management advised
   of any problems or need for changes, the ADS does not
   describe these actions, problems, or changes. It also does not
   advise the technical officer to notify the agreement officer
   when a recipient agency has not provided required reports in a
   timely manner or when an agreement should be amended.

•	 ADS 306 states that (1) technical officers must review and
   administratively approve billings from recipient agencies and
   (2) the paying office shall receive billings, forward them to the
   technical officer for administrative approval, and process
   payments. However, it does not prescribe responsibilities and
   procedures to be followed if the recipient agency does not
   submit the required financial reports when due.

Although inadequate guidance was a contributing factor, in some
cases, the responsible USAID officials simply did not believe the
reporting requirements were important. For example, program
officials responsible for two agreements requiring quarterly
performance reports stated that this requirement placed an
unacceptable reporting and paperwork burden upon the
organizations to which the DOS had awarded contracts or grants.
However, the interagency agreements were not amended to change
the reporting requirements.


                                                                  14
The lack of timely reporting by the DOS under Section 632(b)
agreements impaired USAID's ability to monitor progress in
achieving anticipated results and to accurately report the status of
expenditures under the agreements, as required. Therefore,
USAID needs to establish better management controls to help
ensure that recipient agencies provide financial and performance
reports required under interagency agreements. These controls
should emphasize the respective responsibilities of the technical
and paying offices.


   Recommendation No. 3: We recommend that the
   Office of Procurement, in cooperation with the Office
   of the Chief Financial Officer, clearly identify the
   responsibilities of USAID technical and paying offices
   to enforce provisions that recipient agencies provide
   performance and financial reports required under
   Section 632(b) interagency agreements.


Need for Better Work Statements and Performance Reports

Contrary to federal requirements designed to ensure that
government resources are used efficiently and effectively to
achieve intended program results, USAID did not ensure that work
statements and performance reports for activities funded through
Section 632(b) interagency agreements clearly described
anticipated and actual results. This occurred, in part, because
responsible officials were unaware of relevant USAID guidance.
As a result, they and others had limited ability to objectively
monitor the progress of activities funded through these agreements.

OMB Circular A-123, "Management Accountability and Control,"
revised as of June 21, 1995, requires agencies and individual
federal managers to develop and implement appropriate
management controls to reasonably ensure that government
resources are used efficiently and effectively to achieve intended
program results.

The ADS 203.3.3 requires operating units to conduct portfolio
reviews that cover such issues as sufficiency of inputs, significant
differences between planned and actual expenditures, and status of
implementation. ADS 202.3.4 requires that outputs be specifically
described in Statements of Work and grant agreement program
descriptions.



                                                                   15
The work statements in the four agreements reviewed did not
contain well-defined targets and timeframes to measure progress,
even though USAID had already paid approximately $3.3 million
under these agreements. None of the agreements reviewed
required the performance reports to compare actual results against
what was anticipated for the reporting period. In fact, the reporting
requirements in the agreements were so vague that any type of
performance report provided by DOS could be considered as
meeting the reporting requirements.

For example, the purpose of one agreement (with obligations of
$9.7 million) was to establish partnerships between African and
U.S. educational institutions, with goals of improving the
participation of girls and women throughout the educational
system and more broadly in democracy building. The work
statement did not identify specific results to be achieved such as
the percentage of girls completing a certain grade level or even
how many girls and women were expected to be trained.

Inadequate work statements and performance reports can be
attributed to several causes, including the following:

•	 USAID policies and procedures specifically covering Section
   632(b) interagency agreements did not specify that agreements
   (1) include work statements that clearly defined anticipated
   results (targets and time frames) to be achieved and (2) require
   the recipient agency to provide USAID with performance
   reports that compare actual results against those anticipated.

•	 USAID officials were not aware of, or did not follow, general
   USAID policies and procedures for planning and monitoring
   activities, including those funded through Section 632(b)
   agreements.

In conclusion, the lack of adequate work statements/work plans and
progress reports for Section 632(b) interagency agreements impaired
USAID's ability to objectively monitor performance toward
accomplishing the agreements’ objectives and, in turn, its ability to
ensure that USAID funds were efficiently and effectively spent.
Therefore, we believe that USAID needs to take action to ensure that
well defined work statements, including targets and timeframes, are
included in interagency agreements−or work plans for current
interagency agreements. It also needs to ensure that recipient
agencies report on their progress in achieving those benchmarks.




                                                                     16
   Recommendation No 4: We recommend that the
   Office of Procurement, in cooperation with the
   Bureau for Policy and Program Coordination and the
   Office of General Counsel, establish requirements
   that Section 632(b) interagency agreements include
   well-defined work statements with targets and
   timeframes for anticipated results; and establish
   standard provisions for periodic performance reports
   that identify progress in achieving targets and time
   frames.


Did USAID effectively manage advances under
Section 632(b) interagency agreements?

USAID did not effectively manage advances under Section 632(b)
interagency agreements with the DOS, or with other federal
agencies. As discussed below, USAID needs to establish better
management controls to liquidate advances made under these
agreements.

Need for Better Management Controls to Liquidate
Advances under Expired Interagency Agreements

USAID policy allows for the provision of advances to other federal
agencies that have entered into Section 632(b) interagency
agreements with USAID. As of February 28, 2001, USAID
records showed that advances totaling $71.6 million under such
agreements were outstanding. Of this amount, $30.5 million was
associated with 60 interagency agreements that had expired prior
to December 31, 2000. Expired agreements still had outstanding
advances largely because procedures requiring liquidation of
outstanding advances were inadequate and because managers did
not follow existing procedures for closing out interagency
agreements. Delays in recovering funds that recipient agencies no
longer needed for agreed-upon purposes precluded the use of those
funds for other program priorities.

USAID policies and procedures for providing advances under
interagency agreements, the liquidation of advances, and the close-
out of interagency agreements are set out in two documents. The
first is included in USAID's Automated Directives System (ADS)
as an "Internal Mandatory Reference" to Chapter 200,
“Introduction to Managing for Results." The second is a USAID
General Notice issued in February 2000.



                                                                 17
The Mandatory Reference document states that, under Section
632(b) interagency agreements,

•	 USAID will provide funds to a recipient agency on an advance
   reimbursement basis; and

•	 nine months after the completion date of the agreement USAID
   may unilaterally deobligate funds that have not been disbursed
   and for which USAID has not received reimbursement
   requests.

The second source for policies and procedures is a February 2000
USAID General Notice that was issued in response to an OIG
audit.2 The report noted a significant number of expired
interagency agreements needing close-out. The notice, which was
not included in the ADS as planned, stated that interagency
agreements should be closed out expeditiously after the physical
completion of the activity involved. Agreement officers (or other
designated officials) were instructed to:

•	 obtain from the USAID paying office a statement that certifies
   that final payment documents have been submitted and details
   the total amount obligated, the total amount expended, and the
   total amount remaining as unliquidated;

•	 obtain a statement from the recipient agency that it had
   submitted all required financial reports to the USAID paying
   office;

•	 ascertain that outstanding claims for the unliquidated amount
   are valid and deobligate any excess unliquidated funds after
   receiving the requested information; and

•	 determine on the basis of best available information the amount
   of funds considered to be excess and take action to deobligate
   them, if the participating agency does not provide the requested
   information within 30 days.

Despite instructions in the General Notice that encouraged prompt
close-out of interagency agreements, a report provided by
USAID’s Office of Financial Management (M/FM) showed nine
agreements with the DOS that had expired as of December 31,
2000, with outstanding advances totaling $6.2 million. The report
also indicated that the problem of outstanding advances under

2
    Audit Report No. 9-000-99-007-P, dated April 15, 1999.


                                                                   18
          expired agreements was not restricted to USAID’s interagency
          agreements with the DOS. It identified outstanding advances for
          60 expired interagency agreements (including those with the DOS)
          totaling $30.5 million (see graph below).


          Outstanding Advances3 under Expired Section 632(b)

          Interagency Agreements with Other Federal Agencies

                          by Calendar Year in which they Expired

                                           (In $ millions)


  $35
                                                                           $ 3 0 .5
  $30

  $25

  $20          $ 1 8 .1

  $15

  $10                                          $ 8 .1

   $5                          $ 1 .9                         $ 2 .3

   $0

Expiration:	 1997 and            1998           1999            2000        Total
             before


          Untimely close-out of expired agreements was the result of several
          factors, several of which were interrelated. In some cases, USAID
          did not initiate timely follow-up with the recipient agency. In
          other cases, the recipient agency did not respond. Examples
          include the following:

          •	 One interagency agreement with the DOS expired in
             September 1994 with an outstanding advance of $491,815.
             M/FM had not followed-up on the status of the outstanding
             advance since October 1999.

          •	 One interagency agreement with the U.S. Information Agency
             (now part of the DOS) expired in December 1999 with an
             outstanding advance of $5.0 million. M/FM had not followed-
             up on the status of the outstanding advance.

          •	 One interagency agreement with the Department of Treasury
             expired in December 1996 with an outstanding advance of $4.3

          3
              Advance balances (unaudited) were as of February 28, 2001.


                                                                                      19
   million. M/FM had not followed-up with the Department of
   Treasury since September 1999.

•	 The Office of Procurement in the USAID Bureau for
   Management (M/OP) was responsible for closing out three
   agreements that expired with outstanding advances. M/OP sent
   out appropriate close-out letters, but did not receive responses
   for two agreements that had expired in March 1993 and
   September 1993, respectively. Because its files on the third
   agreement had been destroyed, M/OP was unable to explain
   why that agreement, which expired in July 1992 and which
   M/OP believed had been closed in November 1998 after an
   unliquidated balance of $5,088 had been deobligated, was still
   shown in M/FM records with a outstanding balance of $5,088.

The prevalence and age of these outstanding advances indicate that
USAID’s policies and procedures for achieving timely liquidation
and close-out of advances under expired interagency agreements
need to be clarified. For example, the General Notice, issued in
February 2000, states that if a participating agency does not
respond to a request for missing financial reports within 30 days,
the USAID agreement officer should decide, using the best
available information, the amount of excess unliquidated funds that
should be deobligated. However, the Notice does not describe the
documentation that would be required to make such a
determination, nor does it establish a timeframe for deobligating
advanced funds that are no longer needed.

Delays in accounting for and recovering unneeded advances under
Section 632(b) interagency agreements could preclude the use of
funds no longer needed for their original purpose from being used
for other activities.

In conclusion, USAID needs to establish and document policies
and procedures for the timely accounting of outstanding advances
under interagency agreements. USAID also needs to obtain an
accurate accounting of outstanding advances−especially for
agreements that have already expired−and recover and deobligate
advances that are no longer needed.


   Recommendation No. 5: We recommend that the
   Office of Procurement, in coordination with the Office
   of the Chief Financial Officer, establish and document
   policies and procedures which include timeframes for



                                                                 20
recovering outstanding advances under expired
Section 632(b) interagency agreements.


Recommendation No. 6: We recommend that the
Office of the Chief Financial Officer review
advances made to other federal agencies under the
60 expired interagency agreements identified in
Appendix IV of this report and either liquidate or
recover the reported $30.5 million in outstanding
balances.




                                                     21
[This page intentionally left blank]




                                       22
Management       In its written response to the draft audit report (included in its
Comments and     entirety as Appendix II), USAID management indicated that it
Our Evaluation   concurred with the majority of our findings, conclusions, and
                 recommendations. For the portions of the draft report with which
                 management did not concur, it provided justification for its non-
                 concurrence. Management also suggested some changes and
                 corrections to the draft report, most of which we have incorporated
                 into the final report. Following is a discussion of management’s
                 comments and our evaluation.

                 Overall
                 Management disagreed with the order in which the findings were
                 presented in the draft report and suggested that the title of the
                 report be changed to reflect the fact that a portion of the audit had
                 been expanded to include interagency agreements with other
                 federal agencies, as well as with the Department of State (DOS).
                 Management also proposed that the audit recommendations be
                 addressed to different USAID offices or bureaus than to those
                 originally addressed and that seven closely related audit
                 recommendations be consolidated into one single recommendation.
                 As a result of management’s suggestions we have reordered the
                 findings, changed the title of the report, modified the action office
                 for each recommendation, and reduced the total number of audit
                 recommendations from 13 to 6. Consequently, the presentation of
                 findings and recommendations in the final report differs
                 substantially from that of the draft report and the page numbers
                 cited in management’s comments can no longer be used as a guide
                 to finding the relevant discussion in the final report.

                 The order of the following discussions is based on their order in
                 the draft report and management’s comments to that draft report.

                 Did USAID effectively manage advances under
                 Section 632(b) interagency agreements?
                 Under the section of the draft report dealing with advances under
                 Section 632(b) interagency agreements, management indicated that
                 it generally agreed with our finding. However, it did not agree that
                 outstanding advances from agreements expiring in 2001 or later
                 should be included in the finding. Based on management’s
                 comments, we modified this finding to include only those
                 agreements that had expired prior to 2001. We also reordered the
                 findings in the report so that this section is now presented last.


                                                                                     23
Draft Report Recommendation No. 1 (Final Report
Recommendation No. 5)

Management concurred with this recommendation and indicated
that it would establish and document policies and procedures in the
next update of Automated Directives System (ADS) 306, by
September 30, 2002. Management proposed that the
recommendation be addressed to the Office of Procurement, in
coordination with the Office of the Chief Financial Officer, rather
than the Bureau for Management. We have changed the action
office, as proposed, and consider this recommendation to have
received a management decision.

Draft Report Recommendation Nos. 2-8 (Final Report
Recommendation No. 6)

Management proposed that these seven recommendations be
consolidated into a single recommendation addressed to the Office
of the Chief Financial Officer, rather than to individual bureaus.
Management also indicated that five of the expired agreements in
Appendix IV were listed under the wrong bureau. We have
consolidated the seven recommendations into one single
recommendation addressed to the Office of the Chief Financial
Officer. Because this is a monetary recommendation, for which
management has not yet determined a recoverable amount, we do
not consider it to have received a management decision.

Did USAID establish adequate management controls
for deciding on the use of Section 632(a) and Section
632(b) arrangements?
Management agreed that the lack of well-communicated and
centralized guidance was a problem and stated that it was already
in the process of developing additional centralized guidance to
address the issues noted in the draft report. However, management
requested that the final report indicate more clearly that, while
some guidance was available, it was not adequate to help managers
decide when to use Section 632(a) arrangements. Management
also disagreed with several basic parts of the findings based on
legal interpretations of related laws. For example, management
posited that USAID is not legally required to (1) include
completion dates or instructions for the disposition of unneeded
funds in allocation agreements or (2) document a decision as to
why a Section 632(a) funding arrangement was selected for use.
Finally, management did not believe that there was a legal


                                                                 24
requirement that funds allocated to other federal agencies had to
support USAID goals and objectives. We have deleted this section
of the report.

Draft Report Recommendation No. 9 (deleted from Final Report)


Draft Report Recommendation No. 10 (Final Report
Recommendation No. 1)

Although management indicated that it has already prepared a
model allocation agreement that is currently available in the ADS,
it concurred with this recommendation and stated that further
guidance would be provided in the upcoming revision of ADS 306,
by September 30, 2002. Management proposed that the action
office be changed from the Bureau for Management to the Office
of Procurement, in coordination with the Bureau for Policy and
Program Coordination and the Office of General Counsel. We
have changed the action office, as proposed, and consider this
recommendation to have received a management decision.

Did the Department of State provide financial and
performance reports to USAID as required under
Section 632(a) allocations and Section 632(b)
interagency agreements and were the reports useful to
USAID to manage its programs?

Draft Report Recommendation No. 11 (Final Report
Recommendation No. 2)

Management concurred with this recommendation and indicated
that it would develop applicable policies and procedures in the next
update of ADS 306, by September 30, 2002. Management
proposed that the action office be changed from the Office of
Financial Management to the Office of Procurement, in
coordination with the Bureau for Policy and Program
Coordination, the Office of the Chief Financial Officer and the
Office of General Counsel. We have changed the action office, as
proposed, and consider this recommendation to have received a
management decision.

Draft Report Recommendation No. 12 (Final Report
Recommendation No. 3)




                                                                 25
Management concurred with this recommendation and indicated
that it would clearly identify the responsibilities, as recommended,
in the next update of ADS 306, by September 30, 2002.
Management proposed that the action office be changed from the
Bureau for Management to the Office of Procurement, in
coordination with the Office of the Chief Financial Officer. We
have changed the action office, as proposed, and consider this
recommendation to have received a management decision.

Draft Report Recommendation No. 13 (Final Report
Recommendation No. 4)

Management concurred with this recommendation and indicated
that it would establish the recommended requirements in the next
update of ADS 306, by September 30, 2002. Management
proposed that the action office be changed from the Bureau for
Management to the Office of Procurement, in coordination with
the Bureau for Policy and Program Coordination and the Office of
General Counsel. We have changed the action office, as proposed,
and consider this recommendation to have received a management
decision.




                                                                  26
                                                                       Appendix I




Scope and     Scope
Methodology
              The USAID Office of Inspector General, Performance Audits
              Division performed an audit, in accordance with generally accepted
              government auditing standards, to determine the following:

              •	 Did USAID establish management controls for deciding on the
                 use of Section 632(a) and Section 632(b) arrangements?

              •	 Did the Department of State provide financial and performance
                 reports to USAID as required under Section 632(a) allocations
                 and Section 632(b) interagency agreements and were the reports
                 useful to USAID to manage its programs?

              •	 Did USAID effectively manage advances under Section 632(b)
                 interagency agreements?

              The audit covered Section 632(a) allocation and transfer
              arrangements issued to the Department of State in fiscal year 2000
              and Section 632(b) interagency agreements that were active as of
              September 30, 2000. This universe included: 26 Section 632(a)
              allocations valued at $352.5 million, 113 Section 632(a) transfers
              valued at $388.2 million, and 19 Section 632(b) agreements with
              total obligations and expenditures of $35.3 million and $9.0 million
              respectively.

              After reviewing the number of expired Section 632(b) agreements
              between USAID and the Department of State, we found that a
              number of them still had outstanding advances from USAID. We
              decided to expand the scope of this portion of the audit to include
              expired agreements with other federal agencies, as well as the
              Department of State. The universe of all USAID Section 632(b)
              agreements that had expired prior to January 1, 2001, and still had
              outstanding advances, included 60 agreements with several different
              federal agencies. The total balance of outstanding advances under
              such agreements, as of February 28, 2001, was $30.5 million.

              The audit was conducted at USAID/Washington from April through
              September 2001.

              To accomplish the audit’s objectives, we reviewed applicable federal
              laws and regulations as well as other management controls at
              USAID/Washington to obtain a sufficient understanding of the



                                                                                 27
                                                          Appendix I

relevant management control policies and procedures. Examples
include:

•	 Section 632(a) and Section 632(b) of the Foreign Assistance Act
   of 1961 (as amended);

•	 OMB Circular A-123, "Management Accountability and
   Controls";

•	 "Standards for Internal Controls in the Federal Government"
   issued by the Comptroller General of the United States;

•	 OMB Circular A-34, "Instructions on Budget Execution"; and

•	 USAID Automatic Directives System 200 Series, “Managing for
   Results,” and 306, "Interagency Agreements."

However, we did not assess the reliability of data provided by
USAID officials regarding the number and values of Section 632(a)
allocation and transfers and Section 632(b) interagency agreements
or the number and amounts of outstanding advances under
interagency agreements. We did not contact DOS officials to
determine the reasons for directing or requesting USAID to provide
Section 632(a) allocations or transfers. We also did not contact DOS
officials to determine whether they had actually provided the
performance and financial reports that could not be located by
USAID officials. In each case, we relied on records and statements
provided us by USAID/Washington officials.

Methodology
Based on records provided by USAID/Washington’s Office of
Financial Management, we judgmentally selected seven Section
632(a) allocations and transfers to the DOS (valued at $222.2
million), from a universe of 139 Section 632(a) allocations and
transfers (valued at $740.7 million) that were made in fiscal year
2000. The allocations and transfers selected were authorized by
several USAID bureaus.

Based on records provided by USAID/Washington’s Office of
Procurement officials, we also judgmentally selected four active
Section 632(b) interagency agreements with total obligations of
$15.8 million, from a reported universe of 19 agreements with the
Department of State, with total obligations of $35.3 million (as of
September 30, 2000). Thus, obligations for the agreements selected



                                                                     28
                                                         Appendix I

represented 45 percent of the total obligations for such agreements
with the DOS.


We reviewed copies of the Section 632(a) transfer and allocation
documents and the Section 632(b) interagency agreements. We
reviewed performance and financial reports submitted by the DOS
under these agreements and compared them to the reporting
requirements in the applicable agreement. In addition, we reviewed
other documents provided to us that related to the audit objectives.
We discussed all documents, guidance, and our findings and
recommendations with USAID officials. We reviewed previous
audit reports issued by the USAID Office of Inspector General that
related to our audit objectives.

After reviewing USAID’s controls for managing outstanding
advances under interagency agreements with the DOS, we expanded
the audit scope to include advances made to other federal agencies
because it appeared that the problems we noted were systemic. For
example, the lack of written USAID policies and procedures for
accounting for and recouping outstanding advances under expired
agreements would be applicable to all interagency agreements.

Because the audit primarily focused on the adequacy of USAID
policies and procedures, a materiality threshold for compliance was
not relevant for the audit objectives.




                                                                      29
[This page intentionally left blank]




                                       30
                                                                                                  Appendix II




Management
Comments
 MEMORANDUM




                                                                      September 25, 2001
      U.S. AGENCY FOR

        INTERNATIONAL

         DEVELOPMENT



          MEMORANDUM

          TO:            AIG/A, Toby L. Jarman

          FROM:          Acting AA/M, Richard C. Nygard /s/

          SUBJECT: Draft Report on the Audit of USAID's Monitoring of Interagency
          Arrangements with the Department of State

               Thank you for the opportunity to respond to the subject draft report. The following
          comments were collected from the addressees of the draft report and consolidated into one
          USAID response. Our comments are provided within the context of the appropriate section
          of the report.

          Summary of Results

                 We have had several conversations with the audit staff regarding the scope changes
          during this audit, and how the scope and findings are reflected in the draft audit report.
          Specifically, the original scope was limited to agreements with the Department of State, and
          was later expanded to include the management of advances under 632(b) agreements with
          other federal agencies. The draft report reflects the issue of management of advances first, as
          if it is the most significant finding from the audit. We feel that the issues in the areas of
          proper policies, procedures, guidance and reporting are the most significant findings of this
          audit, and improvements in these areas will lead to more effective management of all
          agreements. Since the scope was expanded beyond Interagency Agreements with State, the
          title of the report should be changed.

             On page 3, please make the following changes:

             Second bullet – substitute “did not adequately communicate” for “had not established”.
             Last paragraph - substitute the word "address" for the word "correct".

          Did USAID effectively manage advances under Section 632(b) interagency agreements with
          the DOS?

               We generally agree with your finding that advances under Section 632(b) agreements
          should be more effectively managed. However, we do not agree that outstanding advances
          from 632(b) agreements expiring in 2001 or later should be included in this universe.
          Appendix IV details and asks us to address only the advances from 60 agreements totaling
          $30.5 million with expiration dates prior to 2001. However, your narrative of the issue and
          your bar graph on page 7 reflect a universe of 81 agreements totaling $71.6 million.

                                     1300 PENNSYLVANIA AVENUE, N.W.

                                          WASHINGTON, D.C. 20523





                                                                                                            31
                                                                                  Appendix II




                                         -2-


Recommendation 1:

  The draft report proposes the following recommendation:

  "We recommend that USAID Bureau for Management establish and document
policies and procedures which include timeframes for recovering outstanding advances
under expired interagency agreements."

  USAID proposes the following recommendation:

   We recommend that the Office of Procurement, in coordination with the Office of
the Chief Financial Officer, establish and document policies and procedures which
include timeframes for recovering outstanding advances under expired 632(b)
interagency agreements.

  Management Decision: We concur with this recommendation and will establish and
document the policies and procedures for recovering outstanding advances under
expired 632(b) interagency agreements in the next update of ADS 306. We expect to
have ADS 306 updated by September 30, 2002.

Recommendations 2 - 8 and Appendix IV:

Recommendations 2 - 8 require that the regional bureaus deobligate any of the
outstanding advances no longer needed from the agreements identified in Appendix
IV. The Office of the Chief Financial Officer (M/CFO) is responsible for making the
advances, posting payments to liquidate the advances, and following up on the
outstanding advances. Deobligation cannot occur on the portion of the obligation that
has an outstanding advance. The bureaus cannot take action on these
recommendations as they are currently presented. We propose that you eliminate
recommendations 2-8 and substitute a single recommendation assigned to M/CFO to
take action on these advances. USAID proposes the following:

We recommend that the Office of the Chief Financial Officer review the outstanding
advances identified in Appendix IV, and take action to liquidate or recover those amounts.

We do not feel that additional recommendations should be made at this time to
examine whether it is possible to deobligate additional funds from these agreements.
As mentioned above, it is not practical for the bureaus to identify amounts for
deobligation until the work on the advances is complete. Also, there has been great
improvement over the last few years in USAID's management of obligations, and
deobligation of excessive amounts. For example, of the $30.5 million in outstanding
advances noted, $26.6 million (87%) comes from agreements managed by the E&E
Bureau. Our review of these indicates that only two of 37 obligations with outstanding
advances have excess funds that could be deobligated. This amounts to only $213,000
and is already on the bureau's list of pending deobligations.




                                                                                             32
                                                                                        Appendix II




                                             -3-


     Some of the agreements in Appendix IV are listed under the wrong Bureau.
Specifically, on the M Bureau list, only item six, Naval Command Control, is managed by
the M Bureau. Items three and five, both Library of Congress, belong to PPC; and items one,
two and four, Judicial Conference of the US, National Science Foundation, and Department
of Agriculture, are the responsibility of the G Bureau. Also, item one, Judicial Conference of
the US, has a completion date of March 2004, not March 1997. It should be removed from
Appendix IV.

Did USAID establish management controls for deciding on the use of Sections 632(a) and
(b) arrangements?

     The draft report indicates that management controls for the use of 632(b) agreements
appear to be adequate, but information does not exist that would help managers decide
whether, and which type of, 632(a) arrangement would be appropriate. In previous
discussions with the auditors it was established and agreed that the report should indicate that
some guidance on 632(a) agreements is available. Although we believe this guidance must be
improved, no significant adverse consequences occurred because of any deficiencies in the
guidance. The current draft does not reflect this. We believe that the lack of well-
communicated, centralized guidance is an issue, and we are already in the process of
developing additional guidance to address the issues noted in this audit report, especially
with respect to 632(a) agreements. Also, as much as possible, we plan to centralize the
guidance on both 632(a) and (b) agreements in ADS 306.

      Page 11 states: “Furthermore, allocation arrangements did not state how the Department
of State (DOS) should dispose of funds that might not be needed to complete the planned
activity.” It should be noted that allocation arrangements do not, as a practical matter, need to
state how the Department of State should dispose of funds that it might not need for a
planned activity because the Department of State is required by law to use the funds to
“[carry] out the purposes of [the Foreign Assistance Act of 1961, as amended (‘FAA’)].” If
funds allocated to the Department of State are not obligated for such purposes by the end of
period of availability, they must be returned to the U.S. Treasury. We will consider whether
guidance is needed to specifically inform the Department of State on how its must dispose of
unneeded funds. The comments in this paragraph also apply to the text at the top of page 13
and at the top of page 14.

      Page 11 also states: “These conditions occurred in part because USAID does not believe
that is has decision-making authority for Section 632(a) arrangements with the DOS . . . .”
While some USAID employees may individually have such a view, it is not the view of the
Agency.

     In the first line of page 12, we recommend that you insert the word “adequate” in front
of “guidance.”

     Page 12 states that “not all Section 632(a) allocation agreements required that the
allocated funds be used for activities that supported USAID goals and objectives nor did they
provide for the disposition of funds that remained unexpended at the termination date of the




                                                                                                    33
                                                                                        Appendix II




                                             -4-


agreement or had been spent for unauthorized purposes.” We do not agree that the allocated
funds must be used specifically for “USAID goals and objectives.” The authority to allocate
funds to other agencies rests ultimately with the President, who may choose to allocate FAA
funds to another agency (e.g. State). Under the statute there is no requirement that he use the
funds for “USAID goals and objectives,” only that he use them “for the purposes of the
FAA.” Once the funds are allocated to State under Section 632(a), State is responsible to
account for those funds, with or without specific instructions or requirements from USAID,
and is fully empowered to recover unexpended funds or funds expended for unauthorized
purposes from the contractors or grantees financed with the allocated funds.

Page 12 of the draft report goes on to relate the guidance identified by each bureau for
deciding on the use of 632(a) allocations or transfers. It fails to note the agreed upon practice
that the E&E bureau and the Department of State have been using. E&E and State have
distinguished between transfers and allocations as follows: If State has the appropriate
account into which funds can be transferred, then a 632(a) transfer is used. If State does not
have an appropriate account, then a 632(a) allocation is used, and the funds remain on
USAID's books for accounting purposes only. Responsibility for program management
remains with State and there is no benefit to USAID, in either the transfer or allocation.

     We believe that while USAID must comply with applicable statutes and regulations in
making Section 632(a) allocations or transfers, there is no legal requirement to document a
decision to use an allocation versus a transfer. In other words, while an allocation must meet
the requirements for an allocation, we do not agree that we must document why we decided
not to do a transfer. The draft report should be revised to avoid such an implication.

      On pages 13 and 14 of the draft report, there is mention of “completion dates” for
Section 632(a) allocation agreements. There is no legal requirement for “completion dates”
for allocations. It should be recalled that a Section 632(a) allocation may be accomplished
simply through the execution of Standard Form 1151, “Nonexpenditure Transfer.” While
USAID often elects to specify obligation deadlines in Section 632(a) allocations and will no
doubt elect to do so in the future, USAID is not legally required to specify a “completion
date” for the activity actually financed by the receiving agency. The obligation deadline used
in some Section 632(a) allocations allows USAID to recover the funds if the receiving
agency has not obligated them by that date and to obligate them directly itself. We
emphasize, however, obligation deadline is not legally required and the audit report should
not imply otherwise.

There is an erroneous assumption underlying the proposed conclusion that “DOS Decision-
Making Meant that Allocations Did Not Always Support USAID Programs.” This section of
the draft audit report appears to be based on a misreading of OMB Circular A-34. We have
had a number of discussions with the auditors on this issue and continue to disagree with
their interpretation of OMB Circular A-34. OMB Circular A-34 addresses the budgetary
treatment (e.g., obligation and expenditure) of both transferred and allocated funds. It
recognizes that a transfer will increase the budgetary level of the account into which the
funds are transferred and to that extent “benefit” that account. In contrast, under an
allocation, the funds remain in the original account and such account thereby “benefits.”




                                                                                                    34
                                            -5-


The budgetary treatment of transfers versus allocations will generally drive the decision on
which approach to use. The issue of benefit to agency programs is simply not relevant.

Recommendation 9:

We do not agree with recommendation 9 and the conclusions on which it is based and ask
that they be withdrawn from this report.

Recommendation 10:

The draft report proposes the following recommendation:

     "We recommend that the Bureau for Management develop standard provisions that must
be included in Section 632(a) allocation documents."
            [
     USAIDThas already prepared a model Section 632(a) allocation agreement that is
currently available
            h       in the ADS. Further guidance will be provided in the upcoming revision
of ADS 306.
            i
     USAIDsproposes the following recommendation:

     We recommend that the Office of Procurement, in coordination with the Bureau for
            p
Policy and Program   Coordination and the Office of General Counsel, develop clear guidance
            a use of Section 632(a) allocations, which includes model allocation agreements.
regarding the
            g
      Management Decision: We concur with this recommendation. As mentioned above,
             e developed a standard format for allocation agreements. We will continue to
we have already
fine tune this document and include it in the next update of ADS 306. We expect to have
ADS 306 updated
             i     by September 30, 2002.
            n
Did the Department of State provide financial and performance reports to USAID as required
            t 632(a) allocations and Section 632(b) interagency agreements and were the
under Section
reports useful
            e to USAID to manage its programs?
        n 11:
Recommendation
            t
The draft report
            i proposes the following recommendation:
            o
     "We recommend     that the USAID Office of Financial Management establish
documentednpolicies and procedures that identify the specific reports required under Section
632(a) allocations
            a      and to develop a system to help ensure that recipient agencies provide
these reports."
            l
            l
            y

            l
            e



                                                                                               35
                                            -6-


     USAID proposes the following recommendation:

     We recommend that the Office of Procurement, in coordination with the Bureau for
Policy and Program Coordination, the Office of the Chief Financial Officer and the Office of
General Counsel, establish policies and procedures that identify the specific reports required
under Section 632(a) allocations. The policies and procedures should also be designed to
enforce the requirement that recipient agencies provide the reports.

     Management Decision: We concur with this recommendation and will develop the
policies and procedures in the next update of ADS 306. We expect to have ADS 306
updated by September 30, 2002.

Recommendation 12:

The draft report proposes the following recommendation:

     "We recommend that the USAID Bureau for Management revise Automated Directives
System 306 to clearly identify the responsibilities of USAID technical and paying offices to
help ensure that recipient agencies provide performance and financial reports required under
Section 632(b) interagency agreements."

     USAID proposes the following recommendation:

     We recommend that the Office of Procurement, in cooperation with the Office of the
Chief Financial Officer, clearly identify the responsibilities of USAID technical and paying
offices to enforce provisions that recipient agencies provide performance and financial
reports required under Section 632(b) interagency agreements.

     Management Decision: We concur with this recommendation and will clearly identify
the responsibilities in the next update of ADS 306. We expect to have ADS 306 updated by
September 30, 2002.

Recommendation 13:

The draft report proposes the following recommendation:

     "We recommend that USAID Bureau for Management establish/clarify requirements to
ensure that Section 632(b) interagency agreements include (1) well-defined work statements
with targets and time frames for anticipated results and (2) standard provisions for periodic
reports that identify progress in achieving the targets and time frames."

     USAID proposes the following recommendation:

     We recommend that the Office of Procurement, in cooperation with the Bureau for
Policy and Program Coordination and the Office of General Counsel, establish requirements
that Section 632(b) interagency agreements include well-defined work statements with




                                                                                                 36
                                             -7-

targets and timeframes for anticipated results; and standard provisions for periodic
performance reports that identify progress in achieving targets and timeframes.

     Management Decision: We concur with this recommendation and will establish these
requirements in the next update of ADS 306. We expect to have ADS 306 updated by
September 30, 2002.




                                                                                        37
[This page intentionally left blank]




                                       38
                                                                            Appendix III




       Section 632(a) Allocations and Transfers and Section 632(b)
                   Interagency Agreements Reviewed


Section 632(a) Allocations
FC-2000-0025A – Originating bureau: Bureau for Management. An allocation of $109.6
million to be used as a contribution on a grant basis to the United Nations Children’s
Fund (UNICEF).

FC-2000-0081A – Originating bureau: Bureau for Management. An allocation of $11.0
million to be used to provide support for victims of the Holocaust and related programs,
particularly to make the U.S. contribution to the Nazi Persecutee Relief Fund.

FC-2000-0002 - Originating bureau: Bureau for Latin America and the Caribbean. An
allocation of $2.0 million for election security support to strengthen the reconstituted
civilian police authority’s capability to provide a stable and secure environment for the
infrastructure supporting an upcoming election in Haiti. The funds were to be used to
supply communication, logistics support and other materials to the Haitian National
Police and the Provisional Electoral Council to ensure a safe and secure environment for
the upcoming elections.

FC-2000-0085 – Originating bureau: Bureau for Asia and the Near East. An allocation of
$14.0 million to fund cash payments to the Pacific Island States party in accordance with
the Treaty on Fisheries and implementing agreements and the South Pacific Tuna Act of
1988.

FC-2000-0043 – Originating bureau: Bureau for Europe and Eurasia. An allocation of
$17.8 million to be used for transportation and related expenses for humanitarian
assistance for the New Independent States (NIS) and for administrative costs of the
Office of the Coordinator of U.S. Assistance to the New Independent States.

Section 632(a) Transfers
FC-2000-0034 - Originating bureau: Bureau for Europe and Eurasia. A transfer of $67.0
million to be used to provide assistance to the United Nations Interim Administration
Mission in Kosovo (UNMIK) International Police; fund training and equipping of new
members of the Kosovo Police Service; and fund continued assistance to development of
a criminal justice system for Kosovo.



                                                                                        39
                                                                           Appendix III


FC-2000-0027 - Originating bureau: Bureau for Europe and Eurasia. A transfer of
$750,000 to be used to support additional assistance to the non-governmental sector in
Belarus through the Democracy Funds Small Grants Program, which is administered by
the Public Diplomacy Section of the U.S. Embassy in Minsk.

Section 632(b) Interagency Agreements
ECG-R-00-00-00003 – Originating bureau: Bureau for Global Programs. The
interagency agreement provided total funding of $1.5 million. This agreement supports
the U.S.-Israel Cooperative Development Research Program (CDR), which is a
partnership that encourages Israeli and developing country scientists to collaborate in
solving development problems in less developed countries.

936-5544-G-00-4556 – Originating bureau: Bureau for Global Programs. The
interagency agreement provided total funding of $2.6 million. This agreement supports
the U.S.-Israel Cooperative Development Research Program (CDR), which is a
partnership that encourages Israeli and developing country scientists to collaborate in
solving development problems in less developed countries.

ECG-P-00-98-00004 – Originating bureau: Bureau for Global Program. The interagency
agreement provided total funding of $2.1 million. This agreement supports the U.S.-
Israel Cooperative Development Research Program (CDR), which is a partnership that
encourages Israeli and developing country scientists to collaborate in solving
development problems in less developed countries.

AFR-P-00-99-00002 – Originating bureau: Bureau for Africa. The interagency
agreement provided total funding of $9.7 million. The agreement funds the Education for
Development and Democracy Initiative that was to establish strategic partnerships
between African and U.S. educational institutions including universities, primary and
secondary schools, and civic and professional education groups. It was also to develop a
public-private partnership with the U.S. technology industry. The main themes are to
strengthen the relevance of educational and civil society institutions to national
development, and improve the participation of girls and women throughout the
educational system and more broadly in democracy building.




                                                                                          40
                                                                                      Appendix IV




  Status of Outstanding Advances under Section 632(b) Interagency 

                           Agreements

                                         (expired as of 12/31/2000)

BUREAU FOR LATIN AMERICA AND THE CARIBBEAN
                                                                           Date of
                                                                         Obligation    Outstanding
 No.   Recipient Agency                              Obligation Number   Completion     Advances
  1    NTIA                                          5980822G00602900      Dec-97            $2,328
  2    Dept of Agriculture                           LAC-P-00-97-00010     Sep-00          $199,450
  3    Dept of Commerce                              LAC-P-00-98-00009     Mar-99            $1,069
  4    Dept of Agriculture                           LAC-P-00-98-00011     Jan-00           $76,241
  5    Dept of Agriculture                          LAC0654RAG100400       Sep-93            $3,845
       TOTAL:                                                                              $282,933


BUREAU FOR POLICY AND PROGRAM COORDINATION
                                                                           Date of
                                                                         Obligation    Outstanding
 No. Recipient Agency                                Obligation Number   Completion     Advances
  1 Library of Congress                              AEP-P-00-99-00008     Dec-98          $191,373
  2 Library of Congress                              PPC-P-00-00-00001     Dec-99          $230,633
       TOTAL:                                                                              $422,006


BUREAU FOR MANAGEMENT
                                                                           Date of
                                                                         Obligation    Outstanding
 No. Recipient Agency                                Obligation Number   Completion     Advances
  1 Naval Command, Control                           MGT-P-00-97-00001     Jun-98            $9,149
       TOTAL:                                                                                $9,149


BUREAU FOR HUMANITARIAN RESPONSE
                                                                           Date of
                                                                         Obligation    Outstanding
 No.   Recipient Agency                              Obligation Number   Completion     Advances
  1    U.S. Department of Commerce                   AOT-P-00-97-00316     Jul-97           $10,000
  2    Federal Emergency Management Agency           FDA-P-00-98-00019     Sep-98          $100,000
  3    Federal Emergency Management Agency           MU0009900025920       May-99          $100,000
                          TOTAL:                                                           $210,000


BUREAU FOR GLOBAL PROGRAMS, FIELD SUPPORT AND RESEARCH
                                                                           Date of
                                                                         Obligation    Outstanding
 No.   Recipient Agency                              Obligation Number   Completion     Advances
  1    NASA                                          9365554G00615000      Dec-97           $34,000
  2    USDA - NFC                                   DAN4109PAG908600       Jul-92            $5,088
  3    U. S. Department of Agriculture               ECG-P-00-99-00001     Mar-00              $983
  4    National Institute of Health                  HRN-P-00-95-00012     Sep-00            $2,642
  5    Judicial Conference of the US                 9365466G00576500      Mar-97           $40,576
  6    National Science Foundation                   9365556G00562400      Sep-96          $120,000
  7    Dept of Agriculture                          DHR5555RAG103100       Mar-93           $54,729
       TOTAL:                                                                              $258,018



                                                                                                 41
                                                                            Appendix IV


BUREAU FOR EUROPE AND EURASIA
                                                                 Date of
                                                               Obligation   Outstanding
      Recipient Agency                     Obligation Number   Completion    Advances
  1   Department of State                  1100001G00354200      Dec-93            65,000
  2   U. S. Department of Agriculture      1100003G00439600      Sep-99           249,000
  3   Department of State                  1100005G00250400      Sep-94           491,815
  4   U. S. Department of Agriculture      1100006G00514900      Sep-97           100,000
  5   U. S. Department of Agriculture      1100006G00657000      Sep-99           150,483
  6   US Department of Treasury            1100009G00411000      Jun-96         2,637,119
  7   US Department of Treasury            1100009G00569500      Sep-98         1,334,750
  8   Department of State                  1100012G00325500      Sep-94            25,000
  9   US Department of Treasury            1100012G00413400      May-97            25,466
 10   Library of Congress                  1800019G00273000      Apr-94            16,886
 11   U. S. Department of Agriculture      1800024G00224500      Mar-94           105,709
 12   U. S. Department of Agriculture      1800024G00274300      Sep-93            64,069
 13   U. S. Department of Agriculture      1800024G00323900      Mar-96           617,785
 14   U. S. Department of Agriculture      1800024G00469100      Mar-96         2,327,912
 15   U. S. Department of Agriculture      1800024G00571400      Sep-97           100,000
 16   Department of State                  1800026G00225400      Jun-94            74,328
 17   Department of State                  1800026G00325700      Dec-94           197,656
 18   Department of State                  1800026G00326600      Dec-95           199,883
 19   US Department of Treasury            1800027G00226000      Sep-94           166,272
 20   Securities and Exchange Commission   1800027G00226100      Jun-96            65,366
 21   US Department of Treasury            1800027G00226200      Sep-94            22,689
 22   US Department of Treasury            1800027G00275000      Sep-94             2,926
 23   US Department of Treasury            1800027G00327300      Dec-94           576,865
 24   US Department of Treasury            1800027G00483000      Dec-96         4,348,460
 25   US Department of Treasury            1800027G00583100      Dec-97         2,188,222
 26   US Department of Energy              1800031G00383100      Sep-95         2,074,881
 27   US Department of Labor               1800033G00237500      Sep-95           358,954
 28   US Customs Service                   1800052G00373100      Dec-95           312,519
 29   USIA                                 2330002G00478600      Dec-99         4,999,263
 30   USDA/FAS/ICD                         ENI-P-00-97-00001     Sep-00         2,057,212
 31   USDA/FAS/RSED                        ENI-P-00-97-00006     Jun-98           250,000
 32   U. S. Department of Agriculture      ENI-P-00-98-00017     Sep-99            70,000
 33   U. S. Department of Agriculture      ENI-P-00-98-00018     Sep-99            50,000
 34   EPA                                     MD1183003          May-96            70,232
 35   US Department of Treasury               MD1183143          Sep-94           107,281
 36   U. S. Department of Agriculture         MD1183605          Mar-94           126,894
 37   Center for Disease Control           CCN-P-HC-00075        Jun-98             5,164
      TOTAL:                                                                   26,636,062


BUREAU FOR ASIA AND THE NEAR EAST
                                                                 Date of
                                                               Obligation   Outstanding
      Recipient Agency                     Obligation Number   Completion    Advances
  1   Not Identified                       ANE0158PAG9011        Sep-93             3,894
  2   Department of State                  2980382G0046210       Sep-95           102,819
  3   OPIC                                 4990015G0035520       Dec-97           251,559
      TOTAL:                                                                      358,272




                                                                                            42
                                                                             Appendix IV


BUREAU FOR AFRICA
                                                                  Date of
                                                                Obligation   Outstanding
      Recipient Agency                      Obligation Number   Completion    Advances
  1   Department of State                   6980565G00621100      Sep-99        $19,144
  2   HHS                                   AFR-P-00-98-00012     Sep-99      $2,275,000
      TOTAL:                                                                  $2,294,144


  GRAND TOTAL: 60 Interagency Agreements                                     $30,470,585




Auditor's Note # 1: The outstanding advances were as of February 28, 2001. Responsible
USAID bureaus were identified by records maintained by the USAID Office of Financial
Management or by management’s letter to the OIG, dated September 25, 2001.

Auditor's Note # 2: Shadowed lines represent Section 632(b) Interagency Agreements with
DOS. The US Information Agency is included as part of DOS.




                                                                                           43
